HHS/OIG-Audit--"Review of Internal Controls Over Cash Receipts, Cash Disbursements, Procurement and Property at the Capital Area Community Action Agency, Inc, (A-04-96-00099)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Internal Controls Over Cash Receipts, Cash Disbursements, Procurement and Property at the Capital Area
Community Action Agency, Inc.," (A-04-96-00099)
December 11, 1996
Complete
Text of Report is available in PDF format (1.31 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review showed that the Capital Area Community Action Agency, Inc. (CACAA) has not developed and implemented an adequate
internal control system for the proper management of cash receipts, cash disbursements, procurement and accountability
for property. As a result, there is no assurance that the Department of Health and Human Services' funds are or can be
expected to be expended and accounted for in accordance with grant terms and conditions.
The internal control system is inadequate because CACAA management did not implement recommendations by the Administration
for Children and Families (ACF), other funding sources, and independent auditors (CPA) over a period of at least 15 years.
We recommend that ACF take appropriate actions to address problems at this grantee, including consideration of suspension
or termination of all ACF funding.
The ACF agreed with our findings and recommendation. The ACF is determining the feasibility of initiating termination
proceedings against CACAA.